No. 19-1328
IN THE

Department of Justice,
v.

Petitioner,

Committee on the Judiciary of the
United States House of Representatives,

Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
____________
CERTIFICATE OF SERVICE

____________

The undersigned certifies that he has this November 17, 2020, caused the
foregoing Motion to Recalendar Argument to be served on the counsel appearing
below by electronic service with consent, and further certifies that all persons
required to be served have been served:
Jeffrey B. Wall
Counsel of Record
Acting Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for the Department of Justice

Douglas N. Letter
Counsel for Respondent

